#

CERTIFICATE OF SERVICE
In accordance with the Texas Rules of Appellate Procedure I certify that a
copy of this Petition for Review was served on Respondent Susan Duesler and
Ryan McFarlin, through ANY counsel of their own record, and all other
participants in civil and criminal problems now inherent in this suit by E Mail on
March 1st, 2021J.

Susan Duesler, 24057712, 3710 Rawlins Street, Suite 950
Dallas, TX 75219
susan@dueslerlaw.com
ryan@mcfarlinfirm.com
fraudreport@texasbar.com
i ip

Mr. Jules Dyl
!Pro

35 | P a g e

JJdL/\

